CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

VISA PLATINUM
Approved Credit Limit:
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

6.90%

Introductory APR for six billing cycles from Account opening.

After that, Your APR will be

11.90%

.

APR for Balance Transfers

1.90%

APR for Cash Advances

After that, Your APR will be 11.90% .
6.90% Introductory APR for six billing cycles from Account opening.

Penalty APR and When it Applies
Paying Interest

For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Set-up and Maintenance Fees
- Annual Fee
- Additional Card Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Introductory APR for six billing cycles from Account opening.

After that, Your APR will be 11.90% .
None
Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
$5.00
None
None
1.00% of each transaction in U.S. dollars
None
Up to $25.00
None
None

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)." See Your Account Agreement for more details.
Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to Your
Account during the first six billing cycles following the opening of Your Account. Any existing balances on N R L Federal
Credit Union loan or credit card accounts are not eligible for the Introductory APR for balance transfers.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01900507-MXC20-C-2-091318 (MXC201-E)

Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at 800-526-6661 x1200 to receive oral disclosures of the Military Lending Act disclosure above and a
description of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if You are 30 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Additional Card Fee:
$5.00. If Your Account is subject to an Additional Card Fee, a fee will be charged for each additional Card issued to Your
Account.
Returned Convenience Check Fee:
$27.00 or the amount of the returned convenience check, whichever is less. If Your Account is subject to a Returned
Convenience Check Fee, the fee will be charged to Your Account when a convenience check is returned for any reason.
Card Replacement Fee:
$5.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Document Copy Fee:
$2.50 per document. If Your Account is subject to a Document Copy Fee, except as limited by applicable law, a fee may
be charged to Your Account for each copy of a sales draft or statement that You request (except when the request is
made in connection with a billing error made by the Credit Union).
Rush Fee:
$15.85 second day. $25.00 overnight. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee
may be charged to Your Account for each rush Card that You request, providing that delivery of the Card is also available
by standard mail service, without paying a fee for delivery.
Research Fee:
$15.00 per hour. If Your Account is subject to a Research Fee, except as limited by applicable law and when the request
is made in connection with a billing error made by the Credit Union, a fee calculated on an hourly basis may be charged to
Your Account each time You request Your Account to be researched.
Convenience/Balance Consolidation Check Stop Payment Fee:
$20.00. If Your Account is subject to a Convenience/Balance Consolidation Check Stop Payment Fee, a fee may be
charged to Your Account for each Stop Payment placed on a convenience check or balance consolidation check
associated to Your Account.
Periodic Rates:
The Introductory Purchase APR is 6.90% which is a daily periodic rate of 0.0189% .
The Purchase APR is 11.90% which is a daily periodic rate of 0.0326% .
The Introductory Balance Transfer APR is 1.90% which is a daily periodic rate of 0.0052% .
The Balance Transfer APR is 11.90% which is a daily periodic rate of 0.0326% .
The Introductory Cash Advance APR is 6.90% which is a daily periodic rate of 0.0189% .
The Cash Advance APR is 11.90% which is a daily periodic rate of 0.0326% .

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01900507-MXC20-C-2-091318 (MXC201-E)

